HHS/OIG, Audit -"State Agency Use of Contracted Services - State of Ohio - July 1, 2001,
Through December 31, 2002 - Ohio Department of Job and Family Services,"(A-05-04-00054)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"State Agency Use of Contracted Services - State of Ohio - July 1, 2001, Through December 31,
2002 - Ohio Department of Job and Family Services," (A-05-04-00054)
May 31, 2005
Complete
Text of Report is available in PDF format (608 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit objective was to determine if claims for contracted services provided under the child support
enforcement program were allowable.  We identified contracting deficiencies and overcharges related
to the improper allocation of Domestic Relations Court costs, unallowable charges for serving warrants,
and improper allocation of claims for security services.  We recommended that the State agency
refund the Federal share of the unallocable and unallowable portion of the Domestic Relations Court
contract charges of $26,320; review the Domestic Relations Court contracts and identify additional
overpayments during the months not specifically reviewed; refund the Federal share of $326,969 for
unallowable payments to serve warrants; and refund the Federal share of unallocable county building
security costs totaling $206,960.